           MEMORANDUM TO THE CHAIRMAN
     On behalf of the Office of the Inspector General (OIG) for the U.S. Nuclear Regulatory
Commission (NRC), I am pleased to submit this Semiannual Report to the U.S. Congress.
This report summarizes significant OIG activities during the period from April 1, 2001, through
September 30, 2001, in compliance with Sections 4 and 5 of the Inspector General Act of 1978,
as amended.

     During this reporting period, our office completed 9 performance audits that made 52 recom-
mendations to the NRC for program improvements and identified $75,000 in funds that could be put
to better use. Six contract audits conducted by the Defense Contract Audit Agency identified $2,422
in questioned costs. In addition, the OIG completed 35 investigations, and made 17 referrals to
NRC management.

     As detailed later in this report, the audit and investigative activities carried out during this
period, together with other initiatives that are still in progress, have specifically addressed all seven
of the most serious management challenges facing the NRC, which the OIG updated and identified
to Congress in November 2000.

     As we move forward from the tragedy of the terrorist attacks on September 11, 2001, the OIG
will do everything in its power to assist the NRC, our Government and the Federal law enforcement
community in restoring peace and security to our Nation. We also look forward to continuing to
work effectively with the Commission, as well as the agency’s management and staff at all levels,
in our common goals of ensuring the effectiveness, efficiency, and integrity of the programs that
ultimately protect the health and safety of the public.



                                                       Sincerely,



                                                       Hubert T. Bell
                                                       Inspector General




April 1, 2001– September 30, 2001                                                                           i
ii   NRC OIG Semiannual Report
                                                 CONTENTS
Executive Summary ...........................................................................................................v

The Office of the Inspector General ................................................................................... 1

    Organization and Functions of the NRC’s OIG ............................................................... 2

    About the NRC ............................................................................................................ 3

    Management Challenges Facing the NRC ...................................................................... 4
The Audit Program ........................................................................................................... 5

    Audit Summaries ......................................................................................................... 5

    Audits in Progress ...................................................................................................... 10

    Significant Recommendations Not Yet Completed ......................................................... 12

The Investigative Program ............................................................................................... 15
    Investigative Case Summaries ..................................................................................... 15

    Investigative Statistics ................................................................................................. 18

Other Activities ............................................................................................................... 21
    Regulatory Review ..................................................................................................... 21

    OIG Information and Planning Conference .................................................................. 22

    OIG Participates in Fraud Awareness Training for Project Managers .............................. 23

    OIG General Counsel Participates in Ethics and Fraud Training ..................................... 24

Appendices .................................................................................................................... 25
    Audit Listings ............................................................................................................. 25

    Audit Tables .............................................................................................................. 27

    Abbreviations ............................................................................................................ 29

    Reporting Requirements Index ..................................................................................... 30



April 1, 2001– September 30, 2001                                                                                                 iii
iv   NRC OIG Semiannual Report
                           EXECUTIVE SUMMARY
     The following two sections highlight selected audits and investigations completed during this
reporting period. More detailed summaries appear in subsequent sections of this report.



AUDITS                                                  equipment, with an acquisition cost of approxi-
                                                        mately $51 million. Statistical projections
■ Commercial nuclear power plant licensees              indicate that the system does not accurately
  submit approximately 1,500 applications               reflect the locations of as many as 3,571
  each year to request that the U.S. Nuclear            pieces of noncapitalized IT equipment,
  Regulatory Commission (NRC) amend their               with an acquisition cost of approximately
  operating licenses. An audit by the NRC’s             $8.38 million. The OIG reported that
  Office of the Inspector General (OIG)                 the agency needs improved management
  revealed that the NRC’s Office of Nuclear             controls to better safeguard its equipment.
  Reactor Regulation (NRR) has developed a
  detailed process for responding to license        ■ One objective of the Nuclear Waste Policy
  amendment requests. The process, which              Act was to avoid nuclear power plant shut-
  includes developing safety evaluations, is          downs due to the loss of spent fuel storage
  well thought out and thorough, and includes         capacity. An OIG audit revealed that, be-
  steps to ensure that the staff performs the         cause of re-racking (i.e., redistributing used
  required technical reviews. However, NRR            fuel rods to gain more space in the spent fuel
  does not maintain sufficient documentation          pool) and limited use of dry cask storage, no
  to demonstrate that the staff, in fact, com-        licensee to date has shut down a plant as a
  pletes all process steps. In addition, NRR          result of insufficient spent fuel storage
  does not meet agency record management              space. However, only limited additional
  requirements in documenting the license             storage capacity is available through contin-
  amendment process.                                  ued re-racking, and more than 1,000 dry
                                                      casks are expected to be in use by the end of
■ Another OIG audit revealed that the NRC’s           the decade. The NRC may also need to cer-
  property management policies for non-               tify additional cask designs. The OIG iden-
  capitalized information technology (IT)             tified that use of the direct final rule process
  equipment adhere to applicable laws and             for those certifications could result in saving
  regulations, such as the Federal Property           $75,000 per design and reduce the process-
  Management Regulations. However, the                ing time by 28 weeks.
  management controls to implement these
  policies are inadequate or lacking. Also, the     ■ One of the most serious management chal-
  agency’s automated property records system          lenges facing the NRC is the maintenance
  contains inaccurate information. In part, this      of a highly competent staff to carry out the
  system is supposed to account for approxi-          agency’s public health and safety mission.
  mately 16,000 pieces of noncapitalized IT                                    (continued on next page)



April 1, 2001– September 30, 2001                                                                     v
Executive Summary (continued)


     About 15 percent of the NRC’s staff (403            The first OIG investigation revealed that the
     employees) is eligible to retire, and the per-      resident inspector used his Government
     centage is as high as 20 percent or greater in      Citibank Visa travel credit card for $269.57
     some technical offices. An OIG audit re-            in personal purchases after he had been
     vealed that the NRC is making an effort to          counseled by his supervisor on two separate
     strengthen its workforce planning approach;         occasions regarding his improper use of the
     however, the agency lacks a comprehensive,          credit card. The second OIG investigation
     agencywide workforce plan. The OIG re-              revealed that the resident inspector visited
     ported that, until the NRC develops and             “adult” Web sites using his NRC computer
     implements such a plan, the future of its           and downloaded 279 pornographic images.
     workforce planning efforts is at risk and
     could potentially jeopardize its ability to      ■ The OIG completed an investigation involv-
     maintain the workforce needed to meet              ing a former employee of an NRC contrac-
     its mission.                                       tor, who alleged that his employment was
                                                        terminated after he reported misconduct by
                                                        two NRC staff members in a letter to senior
INVESTIGATIONS                                          regional management. This investigation
                                                        revealed that senior regional management
■ The OIG conducted an investigation on the             violated NRC Management Directives and
  basis of an anonymous letter alleging that            internal policy guidance pertaining to the
  NRC regional employees were altering                  handling of allegations by releasing the
  devices in order to steal satellite television        letter containing allegations to the NRC
  programming. The letter further alleged               contractor’s supervisor. As a result of re-
  that these individuals were selling these de-         ceiving the letter, the NRC contractor termi-
  vices to other NRC regional staff members.            nated the employee. In addition, the OIG
  This investigation confirmed that a regional          determined that senior regional management
  supervisor and another employee were                  distributed the letter to at least three other
  altering the access cards used within                 regional employees, including a staff mem-
  DIRECTV satellite television devices to               ber who was the subject of one of the allega-
  receive unrestricted, free access to                  tions contained in the letter.
  DIRECTV’s programming. The investiga-
  tion also revealed that a second NRC re-            ■ The OIG completed an investigation regard-
  gional manager had paid one of the                    ing the failure of the regional staff to take
  individuals to alter his access card to en-           appropriate action after receiving new infor-
  able him to receive free programming.                 mation concerning a harassment and intimi-
                                                        dation (H&I) investigation that the region
■ The OIG completed two separate investiga-             had previously closed. Specifically, a paral-
  tions involving an NRC resident inspector.            lel investigation of the same matter, con-
  One investigation involved the inspector’s            ducted by the Department of Labor (DOL),
  misuse of his Government Citibank Visa                revealed new information that contradicted
  travel credit card for personal purchases and         the results of the recently completed NRC
  for personal air travel using the Government’s        case. On the basis of its investigation, the
  fare rate. The second investigation involved          OIG concluded that the region did not prop-
  the inspector’s misuse of his Government-             erly handle the new information identified
  assigned NRC computer.                                during the DOL investigation.

vi                                                                          NRC OIG Semiannual Report
      THE OFFICE OF THE INSPECTOR GENERAL
      In October 1978, the U.S. Congress passed     agency heads; issue subpoenas for all
and the President signed the Inspector General      necessary information, data, reports, and
(IG) Act, which created independent audit and       other documentary evidence; administer oaths
investigative offices within 12 Federal agencies.   for taking testimony; hire their own staffs; and
Before that time, most Federal audit and            request assistance from other Federal, State,
investigative resources were managed by             and local Government agencies. They also act
specific Federal program offices. As a result,      as independent fact gatherers, often undertak-
Federal auditors and investigators were             ing initiatives at the request of the agency
frequently under the direction of the programs      head, and provide assessments in such areas as
that they reviewed. This system also made it        financial management systems and internal
difficult for these small, splintered audit and     controls. In such instances, the IGs and agency
investigative offices to recognize patterns of      management pursue the same ultimate goal —
abuse in their agencies’ programs.                  efficient and effective program operation and
                                                    service delivery.
     The IG concept has proven to be of
significant benefit to the Government. Each              The existence of the IGs also relieves
year, billions of dollars are returned to the       agency program managers and executives from
Federal Government or are better spent on the       being solely responsible for gathering objective
basis of recommendations from IG reports.           data and evidence in circumstances where
Because of this success, the IG concept has         wrongdoing is suspected and where intense
gradually expanded to most of the Federal           scrutiny and controversy exist. In this capacity,
Government, and 57 IGs now provide oversight        an IG is the focal point of responsibility for
for 59 Federal agencies.                            conducting audits and investigations related to
                                                    an agency’s programs.
      The modern civilian IG was derived from
the military custom of having an “Inspector              In the case of the U.S. Nuclear Regulatory
General” to independently review the combat         Commission (NRC), Congress established an
readiness of the Continental Army’s troops.         independent Office of the Inspector General
Today’s civilian IGs are charged with a similar     (OIG) through the 1988 amendment to the IG
mission to independently review the programs        Act. Today, the OIG’s primary mission is to
and operations of their agencies; to detect and     assist the NRC by ensuring integrity, efficiency,
prevent fraud, waste, and abuse; and to promote     and accountability in the agency’s programs to
economy, efficiency, and effectiveness so that      regulate the civilian use of byproduct, source,
their agencies can best serve the public.           and special nuclear materials in a manner that
                                                    adequately protects the health and safety of the
     To accomplish their broad mandate, the IGs     public, as well as the environment, while
have substantial independence and authority to      promoting the Nation’s common defense and
conduct audits and investigations of agency         security. Specifically, the NRC’s OIG supports
programs. They have direct access to agency         the agency by carrying out its mandate to
records and materials; have ready access to                                    (continued on next page)


April 1, 2001– September 30, 2001                                                                    1
The Office of the Inspector General (continued)


(1) independently and objectively conduct and        related to the integrity of the NRC’s programs
supervise audits and investigations related to the   and operations. The majority of the OIG’s in-
NRC’s programs and operations; (2) prevent and       vestigations focus on violations of law or mis-
detect fraud, waste, and abuse; and (3) promote      conduct by NRC employees and contractors, as
economy, efficiency, and effectiveness in the        well as allegations of irregularities or abuses in
NRC’s programs and operations. The OIG also          NRC programs and operations. As a comple-
keeps the NRC Chairman and members of                ment to the investigative function, the staff also
Congress fully and currently informed about          conducts Event Inquiries, which yield investiga-
problems, recommends corrective actions, and         tive reports documenting the examination of
monitors the NRC’s progress in implementing          events or agency actions that do not specifically
such actions. In Fiscal Year (FY) 2001, the          involve individual misconduct. Instead, these
NRC’s total budget authority is $487 million,        reports identify institutional weaknesses that led
which includes an appropriation of $5.5 million      to or allowed the occurrence of a problem. In
for the OIG.                                         addition, the OIG’s investigative staff periodi-
                                                     cally implements preventive initiatives such as
                                                     integrity awareness training.
ORGANIZATION AND
FUNCTIONS OF THE NRC’S OIG                                The OIG’s General Counsel (GC) provides
                                                     independent legal advice on issues concerning
      The NRC’s OIG includes an audit staff, an      criminal law and procedures, evidence, and
investigative staff, an independent counsel, and a   Constitutional law as they relate to the OIG’s
resource management and operations support           investigative program. The GC also develops
(RMOS) staff. The IG’s audit program is designed     legal interpretations of appropriation law,
to keep the NRC Chairman and members of              financial management statutes and regulations,
Congress fully and currently informed about          and procurement and funding rules in support of
problems, recommend corrective actions, and          the OIG’s audit program. In addition, the GC
monitor NRC’s progress in implementing such          conducts and coordinates with other cognizant
actions. OIG conducts performance, financial, and    OIG staff in-depth reviews, and as appropriate,
contract audits. Performance audits are conducted    prepares commentaries on existing and
on NRC administrative and program operations to      proposed legislation, regulations, directives, and
evaluate the effectiveness and efficiency with       policy issues that affect NRC programs and
which managerial responsibilities are carried out    operations. The intent of these reviews is to
and whether the programs achieve intended            assist the agency in prospectively identifying
results. Financial audits attest to the              and preventing potential problems.
reasonableness of NRC’s financial statements.
Contract audits evaluate the costs of goods and           The RMOS staff formulates and executes
services procured by NRC from commercial             the OIG budget, prepares the OIG’s Semiannual
enterprises. In addition, the audit staff prepares   Report to Congress, operates an independent
special evaluation reports that present OIG          personnel program, administers the control of
perspectives or information on a specific topic.     OIG funds, administers the information
                                                     technology programs, coordinates strategic
     The mission of the OIG’s investigative          planning activities, and performs a variety of
program is to perform investigative activities       other support functions.



2                                                                           NRC OIG Semiannual Report
ABOUT THE NRC                                      and official spokesman of the Commission.
                                                   The Executive Director for Operations (EDO)
     The NRC’s mission is to regulate the          serves as the head of the agency for day-to-
Nation’s civilian use of byproduct, source, and    day operations and is responsible for the
special nuclear materials to ensure adequate       administrative functioning of the agency.
protection of public health and safety, to         The EDO oversees the following major
promote the common defense and security, and       program areas:
to protect the environment. The scope of the
NRC’s responsibilities includes regulating         ■ Nuclear Reactor Regulation directs all
commercial nuclear power plants; research, test,     licensing and inspection activities associat-
and training reactors; fuel cycle facilities;        ed with the design, construction, and
medical, academic, and industrial uses of            operation of nuclear power reactors and
nuclear materials; and transportation, storage,      non-power reactors.
and disposal of nuclear materials and waste.       ■ Nuclear Material Safety and Safeguards
                                                     directs all licensing inspection and
      Under its responsibility to protect public
                                                     environmental activities associated with
health and safety, the NRC has three principal
                                                     nuclear fuel cycle facilities, uses of nuclear
regulatory functions. Specifically, the NRC
                                                     materials, storage and transportation of
(1) establishes standards and regulations,
                                                     nuclear materials, safeguarding of nuclear
(2) issues licenses for nuclear facilities and
                                                     materials, management and disposal of low-
users of nuclear materials, and (3) inspects
                                                     level and high-level radioactive nuclear
facilities and users of nuclear materials to
                                                     wastes, and decontamination and
ensure compliance with the agency’s
                                                     decommissioning of facilities and sites.
requirements. These regulatory functions relate
to both nuclear power plants and other uses of     ■ Nuclear Regulatory Research provides
nuclear materials, including nuclear medicine        independent expertise and information for
programs at hospitals, academic activities at        making timely regulatory judgments,
educational institutions, research, and such         anticipating problems of potential safety
industrial applications as gauges and testing        significance, and resolving safety issues. In
equipment, among others.                             addition, the Office of Nuclear Regulatory
                                                     Research supports the development of
     The NRC places a high priority on keeping
                                                     technical regulations and standards, and
the public informed of its work. Toward that
                                                     collects, analyzes, and disseminates
end, the agency maintains a Web site and a
                                                     information about the operational safety of
public document room. In addition, the agency
                                                     commercial nuclear power reactors and
holds public hearings, public meetings in local
                                                     certain nuclear materials activities.
areas and at NRC offices, and a variety of
discussions with individuals and organizations.    ■ Regional offices conduct inspection,
                                                     enforcement, investigation, licensing, and
     The NRC is headed by a five-member              emergency response programs for nuclear
Commission, appointed by the President with          reactors, fuel facilities, and materials licensees
the advice and consent of the Senate, who            within the regional boundaries established by
each serve a term of up to 5 years. The              the NRC’s Headquarters’ offices.
president also designates one member to serve
as the Chairman, principal executive officer,                                  (continued on next page)


April 1, 2001– September 30, 2001                                                                     3
The Office of the Inspector General (continued)


      The NRC staff numbers approximately                MANAGEMENT CHALLENGES
3,000, with roughly two-thirds of the employees
working at the agency’s headquarters in Rockville,
                                                         FACING THE NRC
Maryland. The remainder are primarily located in
                                                             The following table summarizes the seven
four regional offices or at resident inspector offices
                                                         most serious management challenges facing the
at each commercial nuclear power plant and some
                                                         NRC as of November 22, 2000.
fuel cycle facilities.



                 NRC’s Most Serious Management Challenges as of November 22, 2000

    Challenge 1                                          Challenge 5
    Development and implementation of an appropriate     Intra-agency communication (up, down, and across
    risk-informed and performance-based regulatory       agency organizational lines)
    oversight approach
    Challenge 2                                          Challenge 6
    Identification, acquisition, and implementation of   Regulatory processes that are integrated and
    information technologies                             continue to meet NRC’s safety mission in a
                                                         changing external environment
    Challenge 3                                          Challenge 7
    Administration of all aspects of financial           Maintenance of a highly competent staff to carry
    management                                           out NRC’s public health and safety mission (i.e.,
                                                         human capital management)

    Challenge 4
    Clear and balanced communication with external                 The challenges are not ranked in
                                                                   any order of importance
    stakeholders




4                                                                                 NRC OIG Semiannual Report
                          THE AUDIT PROGRAM
     To help the agency improve its effectiveness during this period, OIG completed 9 performance
audits that resulted in 52 recommendations to NRC management and that identified $75,000 in funds
that could be put to better use. Six contract audits conducted by the Defense Contract Audit Agency
identified $2,422 in questioned costs.


AUDIT SUMMARIES                                     that the staff performs the technical reviews that
                                                    are required for NRR to approve or disapprove
                                                    license amendment requests. During the audit,
Review of NRR’s License Amendment/Safety            the OIG’s discussions with NRC officials and
Evaluation Process                                  stakeholders did not reveal any concerns
      Commercial nuclear power plant licensees      regarding the technical quality of NRR’s safety
submit approximately 1,500 applications each        evaluations. However, the process does not
year to request that the NRC amend their            provide adequate controls to demonstrate that all
operating licenses. The Office of Nuclear           process steps are completed and supported by
Reactor Regulation (NRR) is responsible for         sufficient documentation. In addition, the OIG
processing and responding to these license          was unable to verify some process steps by
amendment requests. Safety evaluations are an       reviewing official or other documentation that
essential part of NRR’s response. Safety            was readily available in NRR. This is because
evaluations provide the regulatory bases for the    NRR has not met agency record management
staff’s decisions regarding licensing actions and   requirements in documenting the license
the technical, safety, and legal basis for NRR’s    amendment process.
disposition of a license amendment request.
                                                          The OIG made three recommendations to
     In June 1999, the NRC approved an Indian       the NRC’s Executive Director for Operations
Point 2 Nuclear Power Plant license amendment       (EDO) that NRR should implement to enhance
request to extend the previously established        the license amendment/safety evaluation process.
steam generator inspection interval. In February    At an exit conference, agency managers generally
2000, a steam generator tube failed, prompting      agreed with the facts and recommendations
considerable public interest. Congressional         contained in the draft audit report. (Addresses
interest in this event caused the OIG to initiate   Management Challenges #1 and #6)
an audit of NRR’s safety evaluation process to
(1) evaluate its efficiency and effectiveness and   Memorandum Report: Review of Unbilled
(2) determine whether refinements are needed.       Subcontractor Costs Submitted by Computer
                                                    Sciences Corporation
     The OIG audit revealed that NRR has
developed a detailed process for responding to           This report reflects the results of the OIG’s
license amendment requests. The process,            audit of the NRC’s process for approving a
which includes the development of safety            Computer Sciences Corporation invoice of
evaluations, is well thought out and thorough,
and includes all of the necessary steps to ensure                              (continued on next page)


April 1, 2001– September 30, 2001                                                                    5
The Audit Program (continued)


$542,709 for unbilled costs. The objective of       IT equipment adhere to applicable laws and
the audit was to determine if the NRC staff         regulations, such as the Federal Property
received valid and reliable data to approve the     Management Regulations. However, the
unbilled costs. Because the data contained          management controls to implement these policies
errors and was incomplete, the OIG                  are inadequate or lacking. Also, PASS contains
recommended that the NRC should delay               inaccurate information; in fact, statistical
payment until an incurred cost audit is             projections indicate that the system does not
performed. At an exit meeting, agency officials     accurately reflect the locations of as many as
agreed with the report’s recommendation.            3,571 of the agency’s 16,000 pieces of non-
(Addresses Management Challenge #3)                 capitalized IT equipment, with an acquisition cost
                                                    of approximately $8.38 million. In addition, the
                                                    OIG reported that the agency needs improved
Accountability and Control Over NRC’s
                                                    management controls to better safeguard its
Noncapitalized IT Equipment
                                                    equipment. The OIG made 14 recommendations
      The NRC maintains its official property       to the EDO to improve the property management
records in an online, interactive, computer-based   program. Of these 14 recommendations, 8 relate
property and supply system (PASS), which            to improving the accuracy of PASS information,
serves as the official database for the agency’s    and 6 address inadequate or lacking management
property transactions. The Office of                controls. At an exit conference, NRC officials
Administration, Division of Contracts and           stated general agreement with the report’s
Property Management (DCPM), manages the             findings and recommendations. (Addresses
system, which accounts for more than 27,000         Management Challenges #2 and #3)
pieces of noncapitalized equipment, with an
acquisition cost of approximately $75 million.      Review of NRC’s Dry Cask Storage Program
Of these totals, noncapitalized information
technology (IT) equipment comprises                       In the early 1980s, the NRC predicted that
approximately 16,000 pieces, with an                39 nuclear plants could run out of needed space
acquisition cost of approximately $51 million.      in their spent fuel pools by 1990. In 1982,
Noncapitalized property has an initial cost of      Congress passed the Nuclear Waste Policy Act
less than $50,000 per item.                         in an attempt (among other things) to address
                                                    the need for nuclear power plants to store
     The objectives of this audit were to           spent fuel without adversely affecting plant
determine whether (1) the NRC’s policies            operations. The Act directed the Commission
governing the accountability and control over       to (1) expedite effective use of available storage
agency noncapitalized IT equipment adhere to        at reactor sites, (2) approve the use of one or
applicable laws and regulations; (2) the official   more technologies without the need for approval
database for NRC property transactions reflects     specific to each site, and (3) establish procedures
accurate information regarding the agency’s         for licensing that technology. The technology
noncapitalized IT equipment; and (3) the            adopted for interim storage of spent fuel was dry
property management program has adequate            cask storage, which involves the use of heavily
safeguards to deter and prevent loss through        shielded containers to store radioactive material
fraud, waste, or misuse.                            including spent fuel. According to nuclear
                                                    power industry estimates, about 230 casks are
    This OIG audit revealed that the NRC’s          currently loaded on spent fuel storage
property management policies for noncapitalized     installations at reactor sites, and the industry

6                                                                           NRC OIG Semiannual Report
                                                       through continued re-racking, and the NRC may
                                                       need to certify additional cask designs. Use of
                                                       the direct final rule process for those certifica-
                                                       tions could result in saving $75,000 per design
                                                       and reduce the processing time by 28 weeks.

                                                             The OIG made three recommendations to
                                                       the EDO to improve the dry cask storage
                                                       certification process. At the exit conferences for
                                                       this audit, NRC officials agreed with the
                                                       recommendations. (Addresses Management
                                                       Challenges #1 and #6)

                                                       Memorandum Report: The Workforce
                                                       Planning Contract

                                                             In October 2000, the NRC Chairman
                                                       requested that, by the end of January 2001, the
                                                       staff provide a plan to the Commission to assess
                                                       and maintain the agency’s scientific,
Susquehanna Steam Electric Station                     engineering, and technical core competencies.
                                                       The Chairman noted that maintaining technical
projects that more than 1,000 dry casks will be        competencies may be the biggest challenge
loaded by the year 2010.                               confronting the NRC. As part of the OIG’s
                                                       review of the agency’s workforce planning
      The OIG conducted an audit in response to        efforts, the audit team identified a series of
the increased importance of dry cask storage.          events that warranted attention.
The objectives of this audit were to determine
whether (1) the NRC met the intent of the                    To address the Chairman’s challenge, the
Nuclear Waste Policy Act, to encourage and             Office of Human Resources (HR) was tasked to
expedite the process by which licensees provide        respond to the Chairman’s request. In response,
additional storage for spent nuclear fuel, and (2)     the HR project officer prepared a package,
opportunities exist to improve the efficiency and      including a statement of work, to procure
effectiveness of the dry cask certification process.   consultant and implementation services and
                                                       assistance with NRC’s initiative to develop,
      One objective of the Nuclear Waste Policy        pilot, and implement a strategic workforce
Act was to avoid nuclear power plant shutdowns         planning program. In December 2000, the
that are attributable to the loss of spent fuel        NRC’s DCPM faxed the request for quote
storage capacity. The OIG’s audit revealed that,       packets to three vendors listed under a human
because of re-racking (i.e., redistributing used       resources management schedule contract group
fuel rods to gain more space in the spent fuel         of the GSA’s Federal Supply Schedules. Only
pool) and limited use of dry cask storage, no          one vendor submitted a proposal. The NRC
licensee to date has shut down a plant due to a        awarded a contract to that vendor within
loss of spent fuel storage space. However, only        3 business days, with the period of performance
limited additional storage capacity is available                                  (continued on next page)


April 1, 2001– September 30, 2001                                                                       7
The Audit Program (continued)


lasting through June 30, 2002. The initial            economy and government. Physical security is
contract, valued at $350,000, included four tasks,    the first line of defense for protecting this
with the last three tasks designated as “optional.”   critical infrastructure. Physical security refers
                                                      to the protection of building sites and equipment
      The OIG found that although the agency’s        from theft, vandalism, natural and man-made
actions appeared to have met basic Federal            disasters, and accidental damage.
contracting standards, they did not provide
assurance that the NRC’s best interests were               The objectives of this review were to
being protected. Individually, various events in      determine whether NRC officials (1) developed
the contracting process may not have been cause       an effective plan for protecting the agency’s
for concern. However, taken together, they            physical (non-cyber-based) minimum essential
created the appearance that the contracting           infrastructures; (2) identified its physical
process had not met the spirit of Federal con-        minimum essential infrastructures; and
tracting standards and that contract costs were       (3) identified the threats, vulnerabilities, and
not being tightly controlled. Specifically, (1) the   potential magnitude of harm to the physical
NRC awarded the original contract after a             minimum essential infrastructures. The OIG
solicitation period of only 3 business days and its   conducted this review in conjunction with a
evaluation of the sole bidder’s response; (2) the     national review being coordinated by the
contractor’s first task deliverable predicted a       President’s Council on Integrity and
sizeable increase in contractor costs to complete     Efficiency and the Executive Council on
the initial phase of the workforce planning effort;   Integrity and Efficiency.
(3) only 3 months into the 18-month contract, the
contractor had billed for approximately 77 percent         This report made four recommendations;
of the total contract value; and (4) only 4 months    however, this Semiannual Report to Congress
into the contract, the NRC increased the contract     does not recount details regarding the OIG’s
amount from $350,000 to $651,000, while               findings and related recommendations because
decreasing the period of performance from 18          of the sensitive nature of the information.
months to 9 months.                                   (Addresses Management Challenge #2)

     Agency management agreed with the two
                                                      Results of the Independent Evaluation of
recommendations that the OIG made to the
                                                      NRC’s Information Security Program as
EDO to strengthen the implementation and
                                                      Required by the Government Information
oversight of this contract. (Addresses
Management Challenges #3 and #7)                      Security Reform Act (GISRA)

                                                           During this reporting period, Richard S.
Review of NRC’s Critical Infrastructure               Carson & Associates, Inc., conducted an
Assurance Program, PDD 63, Phase III                  independent evaluation on behalf of the OIG.
                                                      This was the first annual evaluation required by
     The U.S. Government Policy on Critical           GISRA, which focuses on the program
Infrastructure Protection: Presidential Decision      management, implementation, and evaluation
Directive (PDD) 63 calls for a national effort to     aspects of unclassified information security.
ensure the security of the Nation’s critical
infrastructures, which include those physical              The evaluation revealed that the NRC’s
and cyber-based (computer) systems that are           information security program comprises a
essential to the operation of the Nation’s            comprehensive set of policies and procedures.

8                                                                            NRC OIG Semiannual Report
However, the NRC does not have a process to          basis of the organization’s mission, strategic
ensure that the policies and procedures are          plan, budgetary resources, and desired
implemented, and the implementation is               workforce competencies.
inconsistent. The information security program
also lacks central oversight and a senior official         To assess the agency’s workforce planning
responsible for program development,                 efforts to date and determine which offices have
implementation, and maintenance. Further, the        the greatest need for workforce planning, the
agency does not have performance measures in         OIG initiated an audit during the previous
place to assess the implementation of and            reporting period. The objectives of this audit
compliance with the NRC’s information security       were to determine (1) whether the NRC has the
program. The evaluation did not identify mission     requisite resources and senior management
critical material weaknesses, but did identify the   support to carry out and sustain a successful
need to improve the management controls over         workforce planning effort, and (2) whether the
the NRC’s information technology assets.             NRC has an agencywide workforce plan to
                                                     ensure that the agency will have the necessary
     In an exit conference, the OIG staff            staff to continue to meet its safety mission.
discussed the report’s content with senior
agency officials. The OIG will evaluate the                The OIG’s audit revealed that the NRC is
NRC’s Corrective Action Plan addressing the          making a concerted effort to strengthen its
16 recommendations, which is due to be               workforce planning approach; however, the
submitted to the Office of Management and            agency lacks a comprehensive, agencywide
Budget (OMB) by October 31, 2001.                    workforce plan. That is, the NRC has not yet
(Addresses Management Challenge #2)                  fully integrated workforce planning into its
                                                     budget process, communicated its approach
                                                     throughout the agency, or institutionalized its
Review of NRC’s Workforce Planning
                                                     efforts in a holistic plan that coordinates the
     One of the most serious management              various efforts that are currently underway.
challenges facing the NRC is the maintenance         Until the NRC develops and implements such a
of a highly competent staff to carry out the         plan, the future of its workforce planning efforts
agency’s public health and safety mission. This      is at risk and could potentially jeopardize the
effort, known as “workforce planning,” is a          agency’s ability to maintain the workforce
systematic process of identifying the “human         needed to meet its mission.
capital” required to meet organizational goals,
                                                           This report makes five recommendations to
and developing strategies to meet those
                                                     the EDO to integrate, communicate, and
requirements. One aspect of workforce
                                                     institutionalize the NRC’s workforce planning
planning focuses on achieving labor continuity
                                                     efforts. (Addresses Management Challenge #7)
so that when employees leave the agency, the
NRC has developed candidates to fill those
positions. This is particularly important, since     Unauthorized Release of Documents to the
about 15 percent of the NRC’s staff (403             ADAMS Public Library
employees) is eligible to retire, and the
percentage is 20 percent or greater in some               The Agencywide Documents Access and
technical offices. Ultimately, workforce             Management System (ADAMS) is the electronic
planning should provide managers with a              recordkeeping system that the NRC uses to
framework for making staffing decisions on the                                  (continued on next page)


April 1, 2001– September 30, 2001                                                                     9
The Audit Program (continued)


maintain the agency’s official records. ADAMS       Ukrainian programs were initiated in the early
is also the information dissemination system        1990s, with Armenia and Kazakhstan starting a
that the NRC uses to place publicly available       few years later. Through FY 2001, the agency
records on the agency’s public Web server.          had received nearly $38.95 million through fund
                                                    transfers from the U.S. Agency for International
     In June 2001, a public citizen informed the
                                                    Development (AID) Funded Assistance
NRC that sensitive, non-public documents had
been made available to the public via ADAMS.        Activities to NRC. The assistance activities are
In the wake of that event, the OIG conducted an     coordinated by the Office of International
audit to assess the cause of the unauthorized       Programs, with technical support provided by
release of non-public information to the            NRC program offices.
ADAMS Public Library, as well as the handling
of that release by the NRC’s Office of the Chief         The overall objective of the OIG’s audit is
Information Officer (OCIO).                         to determine whether the NRC has adequate
                                                    management controls in place to efficiently and
      The OIG’s report made four recommenda-        effectively manage its AID-funded assistance
tions to the EDO to help the agency limit further   programs. (Addresses Management Challenges
incidents involving unauthorized release of         #3, #4, and #6)
documents to the public from the ADAMS
Public Library. Two recommendations focused
on improving software controls, two involved        Audit of NRC’s Financial Statements for
enhancing security over ADAMS, and one              Fiscal Year 2001
addressed the need to improve communication
procedures within the agency. However, this              Under the Chief Financial Officers Act of
Semiannual Report to Congress does not              1990, the OIG is required to audit the NRC’s
recount details regarding the OIG’s findings and    financial statements or obtain the services of an
related recommendations because of the              independent, external audit firm to perform the
sensitive nature of the information. At the exit    audit. The OIG is currently auditing the NRC’s
conference, the OIG staff discussed the report’s    financial statements for FY 2001 in accordance
content with senior NRC officials, who              with applicable auditing standards. This audit
generally agreed with the report’s findings and     will express an opinion on the agency’s financial
recommendations. (Addresses Management              statements, evaluate internal controls, review
Challenges #2 and #5)                               compliance with applicable laws and
                                                    regulations, review the performance measures
                                                    included in the financial statements for
AUDITS IN PROGRESS                                  compliance with OMB guidance, and review the
                                                    controls in the NRC’s computer systems that are
Audit of NRC’s AID-Funded Assistance                significant to the financial statements.
Programs                                            (Addresses Management Challenge #3)

     The NRC conducts several formal                Audit of the Loss of Materials Licensees’
assistance programs for the nuclear regulators      Impact on Fees
of four countries in the former Soviet Union,
including Russia, Ukraine, Kazakhstan, and               The NRC must recover approximately 100
Armenia. These programs are funded through          percent of its budget authority by collecting fees
the Foreign Assistance Act, as amended by the       from its applicants and licensees. At the same
Freedom of Support Act. The Russian and             time, NRC has signed agreements with States

10                                                                         NRC OIG Semiannual Report
that allow them to regulate the use of radio-         document tracking and reporting capabilities
active material within those Agreement States.        desired by the agency. Overall, these shortfalls
There are currently 32 Agreement States which         prevented the system from operating as desired.
regulate about 75 percent of the material
licensees in the United States, with the potential         In May 2000, the Chairman requested that
to reach 80 percent by FY 2003. As the number         the OCIO conduct an assessment of issues
of licensees regulated by Agreement States has        affecting the implementation of ADAMS and
grown, the number regulated by the NRC has            provide an action plan to addressing those
decreased. However, the agency maintains a            issues. The objectives of this OIG review are to
significant infrastructure to support activities      (1) determine how effectively the OCIO has
such as rulemaking, providing technical support,      carried out the Chairman’s request and
developing additional program guidance, and           (2) assess whether the lessons learned and
performing event followup. The objective of           system fixes resulted in adequate improvements
this review is to determine whether the NRC is        to the system. (Addresses Management
adjusting its resources and operations to reflect     Challenges #2, #4, and #5)
these impacts. (Addresses Management
Challenges #3, #4, and #5)                            Review of NRC’s Significance Determination
                                                      Process
Review of the Agencywide Documents Access
and Management System                                       NRR is installing a new reactor oversight
                                                      and assessment program to gauge licensees’
      Effective document management is critical       performance and cite violations where
to implementing the agency’s mission. Agency          appropriate. A critical element of this program
documents contain important information that          is the Significance Determination Process
provides the basis for policies, decisions, and       (SDP), which staff are to use in assessing
regulatory actions. Consequently, the NRC             inspection findings and determining whether
planned a core system (ADAMS) to meet the             additional inspection or enforcement action is
agency’s current and future needs for                 warranted. The NRC’s objective in using the
agencywide documents access and management.           SDP is to achieve better consistency in the way
Specifically, the NRC planned for ADAMS to            agency staff measure and respond to licensee
address the agency’s records management               performance and inspection findings.
requirements in a manner that would be
acceptable to the National Archives and Records             The objectives of this audit are to
Administration as the NRC’s official electronic       determine whether (1) the SDP is achieving the
recordkeeping system. The agency envisioned           desired results, (2) the NRC staff clearly
that ADAMS would make more documents                  understands the process, and (3) the NRC staff
available to the public, while reducing the time      is using the process in accordance with agency
it takes for NRC staff to respond to requests         guidance. (Addresses Management Challenges
from the public, licensees, and Congress.             #2, #4, #5, and #6)

     With a business case justifying a 2-year         Review of NRC’s Use of Credit Hours
project costing $12.8 million, the system was
declared operational on April 1, 2000.                   Public Law (P.L.) 97-221, Federal
However, the system had shortfalls with regard        Employees Flexible and Compressed Work
to the functionality, ease of use, reliability, and                             (continued on next page)


April 1, 2001– September 30, 2001                                                                    11
The Audit Program (continued)


Schedules Act of 1982, authorized the use of        (2) Is the software on the NRC’s computer
alternative work schedules for Federal workers          equipment properly licensed?
for a 3-year period. P.L. 99-196 (approved in
1985) converted this temporary authority to         (3) Do the NRC’s management controls
permanent. These authorities are reflected in           adequately account for software and provide
Title 5 of the United States Code, Chapter 61           adequate safeguards to deter and prevent loss
(5 U.S.C. 61), Subchapter II, “Flexible and             through fraud, waste, or misuse?
Compressed Work Schedules,” which authorizes
                                                    (Addresses Management Challenges #2 and #4)
agencies to establish programs that allow the use
of flexible schedules as described therein.
                                                    Internet Usage
     The objectives of this review are to deter-
mine whether the NRC’s credit hour policies               The use of the Internet offers tremendous
comply with applicable laws and regulations, and    research capabilities to assist NRC employees in
whether established practices provide adequate      performing their jobs. Nonetheless, providing
controls over the use of credit hours. (Addresses   Internet access carries some risks, one of which
Management Challenge #7)                            is the opportunity for employees to excessively
                                                    browse Web sites for personal reasons. NRC
Review of NRC’s Accountability and Control of       Management Directive 2.7, “Personal Use of
                                                    Information Technology,” states that “it is the
Software, Including Compliance with Software
                                                    policy of the NRC to permit employees limited
Licensing Agreements
                                                    use of agency information technology for
      It is the NRC’s policy to effectively and     personal needs if the use does not interfere with
efficiently manage and use agency property in       official business and involves minimal or no
its (or its contractors’) possession, and to        additional expense to the NRC.”
provide sufficient controls to deter or eliminate
                                                         The OIG is conducting this review to
loss through fraud, waste, or misuse. The
                                                    determine whether use of the Internet by NRC
agency’s use of and investment in functional
                                                    employees is appropriate and in compliance
computer software is significant. As of
                                                    with the agency’s policy. (Addresses
September 2000, the agency had capitalized
                                                    Management Challenges #2, #5 and #7)
software with a value of over $53.1 million,
with an additional $7.7 million representing
software under development. Accordingly, the
NRC must effectively implement adequate
                                                    SIGNIFICANT RECOMMENDATIONS NOT
policies and procedures to safeguard the            YET COMPLETED
agency’s software and ensure compliance with
external laws and regulations.                      NRC Compliance with the Federal Financial
                                                    Management Improvement Act of 1996
     The objectives of this review are to assess
the following considerations:                             The Federal Financial Management
                                                    Improvement Act of 1996 (FFMIA) requires
(1) Do the policies governing the accountability
                                                    agencies to establish a remediation plan when
    and control of software and compliance with
                                                    their financial systems do not comply with the
    software licensing agreements adhere to
                                                    provisions of the Act. The remediation plan is
    applicable laws and regulations?


12                                                                         NRC OIG Semiannual Report
to include resources, remedies, and intermediate   because the NRC had not implemented a cost
target dates to bring the agency’s systems into    accounting process as required by Statement of
compliance. An agency then has 3 years to          Federal Financial Accounting Standards No. 4.
implement its plan. Section 804(b) of the          The NRC’s Office of the Chief Financial Officer
FFMIA requires that IGs who prepare                submitted a remediation plan dated July 19,
semiannual reports to Congress must report         1999, which was last revised in May 2001.
instances and reasons when an agency has not       Full implementation of cost accounting is now
met the intermediate target dates established in   scheduled for January 2002.
its remediation plan.
                                                        The OIG will continue to monitor the
     On March 1, 1999, the OIG reported a          agency’s progress and report, as needed, in
substantial noncompliance with the FFMIA           future semiannual reports.




April 1, 2001– September 30, 2001                                                                13
14   NRC OIG Semiannual Report
                   THE INVESTIGATIVE PROGRAM
     During this reporting period, the OIG received 87 allegations, initiated 34 investigations, and
closed 35 cases. In addition, the OIG made 17 referrals to NRC management.


INVESTIGATIVE CASE                                  theft and related charges. Sentencing is
                                                    scheduled for January 2002. The other two
SUMMARIES                                           NRC employees, as well as a non-NRC
                                                    individual identified during the course of this
Theft of Satellite Television Signals by            investigation entered into pre-trial diversion
Region IV Personnel                                 agreements with the United States Attorney’s
                                                    Office, Northern District of Texas, Forth Worth
     The OIG completed an investigation on the      office. (Addresses Management Challenge #2)
basis of an anonymous letter alleging that NRC
regional employees were altering devices in
                                                    Mishandling of Allegations Against Region
order to steal satellite television programming.
                                                    Staff By Regional Management
The letter further alleged that these individuals
were selling these devices to other NRC                  The OIG conducted an investigation
regional staff members.                             involving a former employee of an NRC
                                                    contractor, who alleged that he was fired after
      Together with the U.S. Secret Service, the
                                                    he reported misconduct by two NRC staff
OIG conducted a joint investigation into this
                                                    members in a letter to senior regional
matter, which confirmed that a regional
                                                    management. In particular, this contractor
supervisor and another employee were altering
                                                    employee alleged that he was fired because
the access cards used within DIRECTV satellite
                                                    senior NRC management provided the letter to
television devices to receive unrestricted, free
                                                    his contractor supervisor.
access to DIRECTV’s programming. During
the course of the investigation, the OIG also            The OIG investigation revealed that senior
determined that the individuals were using          regional management violated NRC
NRC-owned and personally owned computers            Management Directives and internal policy
to perform the illegal alterations. In addition,    guidance pertaining to the handling of
the OIG determined that an NRC regional             allegations by releasing the letter containing
manager had paid one of the individuals to          allegations to the NRC contractor. The letter
alter his access card to enable him to receive      contained the identity of the alleger, the details
free programming.                                   of the allegations, and identities of the NRC
                                                    regional staff who were the subjects of the
     The two NRC employees who altered the
                                                    allegations. As a result of receiving the letter,
DIRECTV access cards to receive unrestricted
                                                    the NRC contractor terminated the employee.
programming resigned from the NRC. To date,
                                                    In addition, the OIG determined that senior
one of the two individuals pleaded guilty in
Federal Court in Fort Worth, Texas, for signal                                  (continued on next page)



April 1, 2001– September 30, 2001                                                                    15
The Investigative Program (continued)


NRC management distributed the letter to at         region should have ensured that the consultant
least three other regional employees, including     was interviewed to obtain the proper context
a staff member who was the subject of one of        and meaning of his notes. As part of its
the allegations contained in the letter.            investigation, the OIG interviewed the
                                                    consultant and determined that there was no
NRC’s Handling of Department of Labor               evidence of collusion between the consultant
Harassment and Intimidation Investigation           and the licensee’s executives.

     The OIG completed an investigation             Falsification of Travel Vouchers and Time and
regarding an allegation that NRC regional staff     Attendance Records by Regional Employee
failed to take appropriate action after receiving
new information concerning a harassment and              The OIG completed an investigation in
intimidation (H&I) investigation that the region    response to several anonymous complaints
had previously closed. Specifically, the            alleging that an NRC regional employee
investigation conducted by the region involved      submitted a fraudulent claim for reimbursement
an allegation that a nuclear power plant licensee   of expenses associated with official travel in
manager discriminated against a licensee shift      May 2000, converted officially obtained
foreman for engaging in protected activity. A       frequent flyer mileage for personal use, and
parallel investigation of the same matter,          improperly used NRC mass transit benefits for
conducted by the Department of Labor (DOL),         his personal use.
revealed new information that contradicted the
results of the recently completed region case.           The OIG determined that the employee
Reportedly, DOL based its conclusion, in part       converted frequent flyer miles obtained through
on notes taken by a licensee consultant, which      official travel into an airline ticket for his wife.
documented conversations between the                The value of Government frequent flyer miles
consultant and licensee executives that, to DOL,    converted to the employee’s personal use
indicated collusion.                                exceeded $1,000 (commercial fare). This
                                                    investigation did not substantiate that the
      On the basis of its investigation, the OIG    employee submitted a fraudulent travel claim
determined that the region did not properly         or that he misused NRC mass transit benefits.
address the new information that surfaced
during the DOL investigation. The region’s          NRC Contractor Use of NRC Pager for
investigation determined that the licensee did      Personal Business
not discriminate against the shift supervisor.
However, DOL’s investigation concluded that              The OIG conducted an investigation on the
the consultant’s notes contained evidence that      basis of a review of two-way pager billing
the licensee did discriminate against the           records, which showed that a pager assigned to
supervisor, and that there was collusion between    an employee of an NRC contractor had incurred
the consultant and licensee management to           excess usage charges of $1,086 over a 4-month
remove the supervisor from his position as a        period. This investigation revealed that the
shift foreman. Given that DOL and the region        contractor’s employee had used the two-way
                                                    communication features of the assigned pager
came to opposite conclusions after reading the
                                                    to send email messages via the Internet. The
consultant’s notes, and that neither DOL nor the    overwhelming majority of these communi-
region had interviewed the consultant during        cations were personal in nature and involved a
their investigations, the OIG determined that the   female residing in Australia. The contractor’s

16                                                                           NRC OIG Semiannual Report
employee has since left the NRC; however, the            The first OIG investigation revealed that
NRC is pursuing reimbursement of these             the reactor inspector used his Government
charges from the contractor.                       Citibank Visa travel credit card for $269.57 in
                                                   personal purchases after he had been counseled
Government Travel Abuse and Use of an NRC          by his supervisor on two separate occasions
Computer to View Pornography                       regarding his improper use of the credit card.
                                                   The OIG also determined that the inspector
     The OIG completed two separate investiga-     changed his itinerary on official Government
tions involving an NRC reactor inspector. One      travel to add personal travel that the
investigation involved the inspector’s misuse of   Government paid for at Government travel
his Government Citibank Visa travel credit card    rates. Additionally, the OIG determined that
for personal purchases and for personal air        during NRC business travel, the inspector
travel using the Government’s fare rate. The       received $777.95 in airline fare refund vouchers
second investigation involved the inspector’s      belonging to the Government, which he
misuse of his Government-assigned NRC              converted into personal travel for himself and
computer. Specifically, a coworker who             another family member. The second OIG
borrowed the computer while the inspector was      investigation revealed that the reactor inspector
away for training, discovered evidence that the    visited “adult” Web sites using his NRC com-
inspector had used the NRC computer to view        puter and downloaded 279 pornographic images.
pornographic Web sites.                                                       (continued on next page)




April 1, 2001– September 30, 2001                                                                  17
The Investigative Program (continued)



INVESTIGATIVE STATISTICS
Source of Allegations — April 1, 2001 through September 30, 2001



                                                                              NRC Management
                                   NRC Employee (6)                                (31)

         Anonymous (10)

                                                                                                                          Other Government
                                                                                                                             Agency (2)
     Regulated Industry (4)
                                                                                                                   Intervenor (4)
                       Contractor (1)

                                    OIG Investigation/                                        General Public
                                       Audit (19)                                                 (10)



                                                                                                                                    Total: 87




Disposition of Allegations — April 1, 2001 through September 30, 2001




                                                                                                                               87




                    34                     34
                                                                     1                   17                        1


                    ed ely
                                           r
                                       fo on                             it                         ff            to cy         tal
               l os ativ              d gati                          ud                    R C Sta             ed gen       To
            C tr                r r e   t i                         A                     N    &            r r
                  is          fe es                              IG                    to nt             fe l A
              in           Re Inv                             rO                    e d me             Re rna
            m                                             f o                     r      e                te
         Ad                  IG                         d                       er g                   Ex
                           O                       r re                     R ef ana
                                                fe                              M
                                             Re




18                                                                                                                                        NRC OIG Semiannual Report
Status of Investigations
   DOJ Referrals                                                                             21
   State Referrals                                                                            1
   State Acceptance for Prosecution                                                           1
   DOJ Acceptance for Prosecution                                                             2
   DOJ Declinations                                                                          19
   Indictments and Arrests                                                                    5
   Convictions                                                                                1
   PFCRA Recoveries                                                                     $11,820
   Other Seizures and Recoveries                                                     $2,748,889*
                                                                                         $4,840
                                                                                         $1,713
   Total Recoveries                                                                  $2,767,262
   NRC Administrative Actions:
            Terminations and Resignations                                                     1
            Suspensions and Demotions                                                         2
            Other Administrative Actions                                                      4
            Counseling                                                                        2
   *This seizure is the result of a joint FBI/OIG investigation.




Summary of Investigations

   Classification of                                               Opened   Closed        Cases In
   Investigations                              Carryover            Cases   Cases         Progress
    A - Conflict of Interest                         2                0       1              1
    B - Internal Fraud                               0                2       2              0
    C - External Fraud                             11                 2       8              5
    D - False Statements                             3                2       3              2
    E - Theft                                        1                1       1              1
    F - Misuse of Government Property                7               11       6             12
   G - Employee Misconduct                           0                0       0              0
    H - Management Misconduct                        4                2       5              1
    I - Technical Allegations — Other                1                5       5              1
    J - Whistleblower Reprisal                       1                0       1              0
    Total Investigations                           30                25      32             23
    Total Event Inquiries                            5                2       3              4
    Investigative Initiatives                      17                 1       1             17




April 1, 2001– September 30, 2001                                                                    19
20   NRC OIG Semiannual Report
                                 OTHER ACTIVITIES
REGULATORY REVIEW                                     within 90 days, and notice if the agency declines
                                                      to revise the proposed directive or policy.
      The Inspector General Act, 5 U.S.C. App. 3,
Section 4(a)(2), requires the OIG to review                From April 1, 2001, through September 30,
existing and proposed legislation and regulations,    2001, the OIG reviewed more than 250 agency
and to make recommendations concerning the            documents, including approximately 160
impact of such legislation or regulations on the      Commission Papers (SECYs) and 75 Federal
economy and efficiency of programs and                Register notices, regulatory actions, and
operations administered by the agency. NRC            statutes. The most significant commentaries are
agency directives requiring submission of all         summarized in the following paragraphs.
draft legislation, regulations, and policies to the        During this period, revisions to several
OIG facilitates this statutory review.                Management Directives (MDs) gave the OIG
     The OIG conducts its regulatory reviews by       the opportunity to have its independent authority
examining documents submitted by the agency,          and responsibility documented and clarified.
which reflect regulatory, statutory, and policy            The first document in this category was
actions. The agency’s proposed actions are            MD 10.62, “Leave Administration.” The OIG
measured against standards that are intended to       reviewed the guidance in this directive and
evaluate the potential for fraud, waste, and          advised that it be modified to identify the
abuse, as well as efficiency. The review also         applicable approval official for OIG employees’
encompasses issues raised in OIG                      leave and absence.
investigations, audits, and earlier regulatory
commentaries.                                              Substantive proposals for revision of MD
                                                      9.14, “Organization and Functions, Office of
      The objectives of the regulatory review         International Programs,” focused on compliance
program are to systematically address agency          with the requirements of Management Directive
actions, and to continue an ongoing dialogue to       1.1 that all directives contain a handbook. In a
eliminate vulnerability to fraud, waste, and          timely reply, the agency responded to the OIG
abuse within the agency. It also serves to advise     by clarifying that the Office of International
agency managers of the importance of                  Programs is exempt from this provision.
considering aspects of agency policy and              However, the agency did positively respond to
procedures that impact the OIG’s mission-             the comment that information regarding “special
related functions and responsibilities. In            access programs” is not ordinarily included in a
addition, comments are used to address issues         public document.
related to preserving the independence and
integrity of the OIG under its statutory precept.          The OIG’s comments on the proposed
                                                      revisions to MD 8.2, “NRC Incident Response
     In order to more effectively track agency        Program,” urged the agency to re-craft the
responses to regulatory review comments, the
OIG requests written replies to comments                                        (continued on next page)


April 1, 2001– September 30, 2001                                                                    21
Other Activities (continued)


directive with more specific and precisely            “negative consent” to a “notation vote.”
worded direction. Inclusion of minimum                Subsequent revisions have been made to the
numbers for expected drills and exercises was a       SECY, with additional response by the OIG.
major point, as was inclusion of the number of        This matter is still under review at the time of
times that the agency anticipate staff will meet      this publication.
with licensees.

     An issue of great importance to the public,      OIG INFORMATION AND
and a matter identified as one of the NRC’s
most serious management challenges, is
                                                      PLANNING CONFERENCE
communication. The OIG has discussed this                   The OIG held its annual Information and
issue under its formal title, “Clear and Balanced     Planning Conference on May 21, 2001. This
Communication With External Stakeholders,” in         was a departure from past conferences, as it was
a variety of settings and has received positive       held at the beginning of the OIG’s planning
reactions from attendant agency staff. Because        cycle, rather than toward the end. By holding
this matter is of critical importance in satisfying   the conference earlier in the calendar year, the
the agency’s basic statutory mission, the OIG         OIG hoped to receive broader stakeholder input
commented on the proposed Commission Paper            into its planning process.
(SECY 01-137), entitled “Improving Public
Participation,” which, from the OIG’s                      The theme for this year’s conference was
perspective, failed to allow adequate public          “NRC’s New Regulatory Approach and How
participation. When the document was                  Effective Communication is Key.” This was a
forwarded to the Commission responding to             continuation from last year’s theme, which
OIG’s concerns, the OIG followed up with a            addressed only the new regulatory approach.
memorandum addressed directly to the                  The conference offered a keynote speaker and
Commission. In response, the Commission               two panel presentations.
changed the process for the SECY from a




Inspector General Hubert T. Bell thanks NRC
Chairman Richard A. Meserve for his thought-
provoking and interesting keynote address at
the 2001 OIG Planning Conference.




22                                                                            NRC OIG Semiannual Report
      The conference began with opening                Kathy Allen, Organization of Agreement States;
remarks by Inspector General Hubert T. Bell,           Paul Schmidt, Conference of Radiation Control
who then introduced the keynote speaker,               Program Directors; and Judith Johnsrud,
Chairman Richard A. Meserve. The Chairman              Independent Consultant. This panel spoke about
was asked to expand upon his comments from             how the NRC performs as a regulator and as a
last year’s conference by addressing his               communicator. Overall, all of the panel
perceptions of the NRC’s effectiveness in              members felt that there is good communication
communicating the agency’s new regulatory              between the NRC and outside groups.
approach. The Chairman began by stating that
the NRC cannot accomplish its mission to protect            Question-and-answer sessions were
public health and safety and the environment           conducted at the conclusion of Chairman
without public confidence and trust in the             Meserve’s keynote address and each panel’s
decisions the Commission and its staff make.           presentation. Questions asked by the audience
He followed by saying that the most significant        sought clarification regarding a variety of issues
way that the NRC can instill public trust and          addressed during the conference. The confer-
confidence is to engage its stakeholders in            ence was concluded with closing remarks from
effective communication. The challenge is to           the IG.
explain the technical details of the facilities that
                                                            The OIG believes that information obtained
the NRC regulates in terms that are understand-
                                                       during the conference was useful in developing
able. There is a substantive imperative for the
                                                       the OIG’s FY 2002 Annual Plan. The
regulator to involve the public in its decision
                                                       conference and its agenda generated extensive
making. The public may on occasion bring to
                                                       interest and was well attended by NRC staff,
light issues that deserve careful attention that
                                                       including many senior management officials.
otherwise would not have been examined.
Equally important, there is a procedural
imperative to make such licensing decisions
through processes accessible to the public.
                                                       OIG PARTICIPATES IN FRAUD
                                                       AWARENESS TRAINING FOR
     The Chairman’s keynote presentation
was followed by a panel discussion consisting
                                                       PROJECT MANAGERS
of four distinguished speakers, including                    The NRC has long recognized the
Patricia Norry, Deputy Executive Director for          importance of developing and maintaining a
Management, NRC; James Dyer, Regional                  competent acquisition workforce. The agency
Administrator, Region III, NRC; Elizabeth              recently approved a mandatory acquisition
Hayden, Deputy Director, Office of Public              certification and training program for project
Affairs, NRC; and David Lochbaum, Union of             managers (PMs) and other staff involved in
Concerned Scientists. This panel provided              managing NRC contracts. The OIG participated
insights related to the impact of effective            in this important program by conducting sessions
communication on the new regulatory approach           on identifying potential fraud. The purpose of
as the NRC continues its ongoing efforts to            the OIG’s session was to make NRC PMs
ensure integrity and effectiveness.                    aware of (1) how to identify contract fraud,
                                                       (2) the fact that fraud occurs on NRC contracts,
    The next and final panel consisted of Carl
                                                       and (3) the need to report fraud to the IG.
Paperiello, Deputy Executive Director for
Materials, Research and State Programs, NRC;                                      (continued on next page)


April 1, 2001– September 30, 2001                                                                      23
Other Activities (continued)


      The training session began by describing          OIG GENERAL COUNSEL
the OIG’s investigative mission, areas of
investigative activity, and sources of investi-         PARTICIPATES IN ETHICS AND
gations. The session went on to describe the            FRAUD TRAINING
ways in which procurement contract fraud
occurs, such as (1) product substitution,                       Maryann Grodin, General Counsel to the
(2) cost mischarging, (3) progress payment fraud,       Inspector General taught the segment entitled
(4) kickbacks, (5) bribery, (6) conflict of interest,   “Ethics and Fraud” at the Inspectors General
(7) theft of sensitive information, (8) wire fraud,     Institute at the American University. The target
(9) false claims, (10) false statements, (11) mail      audience for this program was prospective and
fraud, and (12) computer crime.                         current IGs for federal, state and local
                                                        jurisdictions. This program covered the broad
      Specific cases involving the types of             spectrum of responsibilities and processes
contract fraud were then described in detail            encountered in serving as an independent audit
so that the PMs and staff would know how                and investigatory function within an agency or
contract fraud is actually perpetrated. The NRC         administration.
staff who attended the training asked many
thought-provoking questions, and spoke                         Ms. Grodin’s presentation significantly
favorably of the benefits derived from the              contributed to the success of the ethics and fraud
fraud awareness training.                               program.




24                                                                             NRC OIG Semiannual Report
                                    APPENDICES

AUDIT LISTINGS

Internal Program Audit and Special Evaluation Reports

Date           Title                                                Audit Number

09/18/01       Review of NRR’s License Amendment/Safety             OIG-01-A-05
               Evaluation Process

04/09/01       Memorandum Report: Review of Unbilled                OIG-01-A-09
               Subcontractor Costs Submitted by Computer
               Sciences Corporation

06/01/01       Accountability and Control Over NRC’s                OIG-01-A-10
               Noncapitalized IT Equipment

06/20/01       Review of NRC’s Dry Cask Storage Program             OIG-01-A-11

06/21/01       Memorandum Report: The Workforce Planning            OIG-01-A-12
               Contract

07/18/01       Review of NRC’s Critical Infrastructure Assurance    OIG-01-A-13
               Program, PDD 63, Phase III

09/10/01       Results of the Independent Evaluation of NRC’s       OIG-01-A-14
               Information Security Program as Required by the
               Government Information Security Reform Act (GISRA)

09/17/01       Review of NRC’s Workforce Planning                   OIG-01-A-15

09/24/01       Review of the Unauthorized Release of Documents      OIG-01-A-16
               to the ADAMS Public Library




April 1, 2001– September 30, 2001                                             25
Contract Audit Reports

    OIG               Contractor/                 Questioned            Funds Put to
Issue Date          Contract Number                 Costs                Better Use

01/26/01          Mega-Tech, Inc.
                  RS-OIP-00-003                          0                    0



02/12/01          Mega-Tech, Inc.
                  RS-OIP-00-003                          0                    0



04/13/01          Pennsylvania State University
                  NRC-04-98-041                     $2,422                    0



04/16/01          Risk Engineering, Inc.
                  NRC-04-96-037                          0                    0



05/17/01          Beckman and Associates, Inc.
                  NRC-03-98-021                          0                    0



06/08/01          Battele Memorial Institute
                  NRC-04-90-069                          0                    0




26                                                           NRC OIG Semiannual Report
AUDIT TABLES
     During this reporting period, the OIG analyzed 6 contract audit reports issued by the DCAA.

Table I

                            OIG Reports Containing Questioned Costs
                              April 1, 2001 – September 30, 2001

                                                                  Questioned        Unsupported
                                                 Number of           Costs              Costs
Reports                                           Reports          (Dollars)          (Dollars)

A.   For which no management decision
     had been made by the commencement
     of the reporting period                         0                   0                0

B.   Which were issued during the
     reporting period                                1              2,422                 0

     Subtotal (A + B)                                1              2,422                 0

C.   For which a management decision was
     made during the reporting period:

     (i) dollar value of disallowed costs            1              2,422                 0

     (ii) dollar value of costs not disallowed       0                   0                0

D.   For which no management decision
     had been made by the end of the
     reporting period                                0                   0                0

E.   For which no management decision was
     made within 6 months of issuance                0                   0                0




April 1, 2001– September 30, 2001                                                                  27
Table II

                          OIG Reports Issued with Recommendations
                               That Funds Be Put to Better Use
                             April1, 2001– September 30, 2001

                                                   Number of          Dollar Value
Reports                                             Reports            of Funds

A.    For which no management decision                0                     0
      had been made by the commencement
      of the reporting period

B.    Which were issued during the                    1                  $75,000*
      reporting period

      Subtotal (A + B)                                1                  $75,000

C.    For which a management decision was
      made during the reporting period:

      (i) dollar value of recommendations             1                  $75,000
          that were agreed to by management

      (ii) dollar value of recommendations            0                     0
           that were not agreed to by management

D.    For which no management decision had            0                     0
      been made by the end of the reporting
      period

E.   For which no management decision was             0                     0
     made within 6 months of issuance




*Result of Review of NRC’s Dry Cask Storage Program. (See page 6).




28                                                                   NRC OIG Semiannual Report
ABBREVIATIONS

AID                U.S. Agency for International Development
ADAMS              Agencywide Documents Access and Management System
DCAA               U.S. Defense Contract Audit Agency
DCPM               Division of Contracts and Property Management (NRC)
DOJ                U.S. Department of Justice
DOL                U.S. Department of Labor
EDO                Executive Director for Operations (NRC)
FFMIA              Federal Financial Management Improvement Act of 1996
FY                 fiscal year
GC                 General Counsel (OIG)
GISRA              Government Information Security Reform Act
GSA                U.S. General Services Administration
H&I                harassment and intimidation
HR                 Office of Human Resource (NRC)
IG                 Inspector General
IT                 information technology
MD                 Management Directive(s)
NRC                U.S. Nuclear Regulatory Commission
NRR                Office of Nuclear Reactor Regulation (NRC)
OCIO               Office of the Chief Information Officer (NRC)
OIG                Office of the Inspector General
OMB                Office of Management and Budget
PASS               Property and Supply System
PDD                Presidential Decision Directive
P.L.               Public Law
PM                 project manager
RMOS               Resource Management and Operations Support
SDP                significance determination process
SECYs              Commission Papers
U.S.C.             United States Code


April 1, 2001– September 30, 2001                                         29
REPORTING REQUIREMENTS INDEX
     The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
semiannual reports. This index cross-references those requirements to the applicable pages where
they are fulfilled in this report.


CITATION             REPORTING REQUIREMENTS                                                                      PAGE


Section 4(a)(2)      Review of Legislation and Regulations ................................................ 21–22

Section 5(a)(1)      Significant Problems, Abuses, and Deficiencies ......................... 5–10, 15–17

Section 5(a)(2)      Recommendations for Corrective Action ............................................... 5–10

Section 5(a)(3)      Prior Significant Recommendations Not Yet Completed.............................. 12

Section 5(a)(4)      Matters Referred to Prosecutive Authorities ......................................... 15, 19

Section 5(a)(5)      Information or Assistance Refused ....................................................... None

Section 5(a)(6)      Listing of Audit Reports ..................................................................... 25–26

Section 5(a)(7)      Summary of Significant Reports .............................................. 5–10, 15–17

Section 5(a)(8)      Audit Reports — Questioned Costs .......................................................... 27

Section 5(a)(9)      Audit Reports — Funds Put to Better Use .................................................. 28

Section 5(a)(10) Audit Reports Issued Before Commencement of the Reporting
                 Period for Which No Management Decision Has Been Made ................ None

Section 5(a)(11) Significant Revised Management Decisions .......................................... None

Section 5(a)(12) Significant Management Decisions With Which
                 the OIG Disagreed ............................................................................. None




30                                                                                        NRC OIG Semiannual Report
